Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    MEDICAID REBATES FOR
   PHYSICIAN-ADMINISTERED
           DRUGS




                    Inspector General
                       April 2004
                    OEI-03-02-00660
               Office of Inspector General

                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
State Medicaid fraud control units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
�   A B S T R A C T 





                                   Under the Medicaid Drug Rebate Program, manufacturers are
                                   required to provide rebates on drugs paid for by a State. To receive
                                   rebates, States must identify the drugs by their national drug code.
                                   Most States, however, use procedure codes to identify physician-
                                   administered drugs. The States that match procedure codes to
                                   national drug codes do collect rebates on these drugs. We found that
                                   in 2001, Medicaid could have saved millions of additional rebate
                                   dollars if every State had collected rebates for all single-source
                                   physician-administered drugs and 40 multiple-source physician-
                                   administered drugs. As of March 2003, 24 States did not collect
                                   rebates on any physician-administered drugs. Our study indicates a
                                   State’s savings in a single year could exceed the one-time cost of
                                   implementing system changes needed to collect rebates for these
                                   drugs. We recommend that the Centers for Medicare & Medicaid
                                   Services (CMS) continue to encourage all States to collect rebates on
                                   physician-administered drugs, especially single-source drugs. As part
                                   of this effort, CMS should encourage cooperation and the sharing of
                                   information between States that collect rebates for these drugs, and
                                   States that do not, in order to facilitate rebate collection. CMS
                                   concurred with our recommendation and is currently facilitating
                                   information sharing.




     O E I - 03 - 02 - 0 0 6 6 0        ME D I C A I D RE B A T E S   FOR   PH Y S I C I A N - A D M I N I S T E R E D D RUGS   i
�   E X E C U T I V E                                  S U M M A R Y 




                                   OBJECTIVES
                                   (1) To determine whether all State Medicaid agencies collect
                                   drug manufacturer rebates for all physician-administered drugs.
                                   (2) To estimate the potential savings that would result if all
                                   State Medicaid agencies collected drug manufacturer rebates for
                                   physician-administered drugs.


                                   BACKGROUND
                                   The Medicaid program, established under Title XIX of the Social
                                   Security Act, is administered by States and financed with State
                                   and Federal funds. Medicaid pays for medical and health-
                                   related assistance for certain vulnerable and needy individuals
                                   and families. All 50 States and the District of Columbia provide
                                   coverage for prescription drugs under the Medicaid program.
                                   The Medicaid Drug Rebate Program was established in 1990 to
                                   reduce State and Federal Medicaid expenditures for prescription
                                   drugs. Under the rebate program, manufacturers are required
                                   to provide a rebate on drugs paid for by a State. Physician-
                                   administered drugs (drugs that a medical professional
                                   administers to a patient in a physician’s office) are covered
                                   under this program. In order to collect the rebates, States must
                                   identify the drugs by their national drug codes and provide
                                   units-paid data to the drug company. Unlike self-administered
                                   drugs, which are typically billed to the State with national drug
                                   codes, physician-administered drugs are more often billed with
                                   procedure codes. States that use procedure codes to bill
                                   physician-administered drugs need a crosswalk to national drug
                                   codes in order to collect rebates on these drugs. A crosswalk is
                                   the identification of national drug codes for drugs represented
                                   by procedure codes.
                                   We asked Medicaid directors from 48 States and the District of
                                   Columbia about their coding and rebate policies concerning
                                   physician-administered drugs. We also requested financial
                                   data, such as total payments and units paid for physician-
                                   administered drugs in calendar year 2001. Arizona and
                                   Tennessee did not participate in the rebate program that year.
                                   We estimated potential savings on all the single-source and 40



     O E I - 03 - 02 - 0 0 6 6 0   ME D I C A I D RE B A T E S   FOR   PH Y S I C I A N - A D M I N I S T E R E D D RUGS   ii
E   X   E      C      U       T       I   V   E         S     U      M       M       A      R       Y


                                              multiple-source, physician-administered drugs for which States
                                              made payments but did not receive rebates in 2001.


                                              FINDINGS
                                              In 2001, 17 States collected rebates for physician-
                                              administered drugs, and 31 States did not. Of the 17
                                              States that collected drug manufacturer rebates for physician-
                                              administered drugs in 2001, 3 collected rebates on all physician-
                                              administered drugs. These three States use national drug codes
                                              for billing. The remaining 14 States use procedure codes. These
                                              14 States crosswalk procedure codes to national drugs codes for
                                              single-source drugs and collect rebates on these drugs only.
                                              Thirty-one States did not collect rebates on any physician-
                                              administered drugs in 2001, and 1 additional State did not
                                              respond to our question about rebate collection.
                                              Medicaid could have saved millions of additional rebate
                                              dollars on physician-administered drugs in 2001. If all
                                              States had collected rebates for all single-source and 40
                                              multiple-source, physician-administered drugs, Medicaid could
                                              have added $37 million to its rebate savings for 2001. The
                                              majority of additional savings ($30 million) would have been on
                                              rebates for single-source drugs alone, and the remainder
                                              ($7 million) would have been on 40 multiple-source drugs.
                                              After 2001, 7 of 31 States that had not collected rebates on
                                              physician-administered drugs began to do so. Of the 7 States
                                              that began collecting rebates after 2001, 6 States collect rebates on
                                              single-source, physician-administered drugs, and 1 State collects
                                              rebates on all physician-administered drugs billed by a targeted
                                              group of providers. (We estimated that the 2001 potential savings for
                                              these seven States was $14 million on all single-source and 40
                                              multiple-source physician administered drugs.) As of March 2003, 24
                                              States still did not collect rebates on any physician-administered
                                              drugs. These 24 States spent a total of $125 million on physician-
                                              administered drugs. Five of these 24 States said they have no plans
                                              to collect rebates for physician-administered drugs. While 19 of
                                              these 24 States said they plan to collect rebates for these drugs, 13 of
                                              the 19 States did not have specific plans to collect rebates.




        O E I - 03 - 02 - 0 0 6 6 0           ME D I C A I D RE B A T E S   FOR   PH Y S I C I A N - A D M I N I S T E R E D D RUGS   iii
E   X   E      C      U       T       I   V   E         S     U      M       M       A      R       Y


                                              For States that had data available, rebates either
                                              requested or collected in 2001 exceeded the system
                                              implementation cost of collecting rebates for physician-
                                              administered drugs. Four States provided us with their
                                              estimated costs for implementing system changes to collect
                                              rebates for physician-administered drugs. For each of these
                                              States, rebates in 2001 alone exceeded their one-time
                                              implementation costs. The State that spent the most ($642,000)
                                              collected $3 million in rebates for all physician-administered
                                              drugs in 2001. The State that spent the least ($56,100) collected
                                              $3 million in rebates on single-source, physician-administered
                                              drugs in 2001.


                                              RECOMMENDATION
                                              Rebates for physician-administered drugs help States reduce
                                              prescription drug expenditures, which are rising at a time when
                                              State budgets are severely stressed. Federal and State Medicaid
                                              expenditures on physician-administered drugs could have been
                                              reduced by an estimated $37 million in 2001 if all States
                                              collected rebates on those drugs.
                                              Based on cost estimates provided to us from States that have
                                              implemented changes in order to collect rebates for physician-
                                              administered drugs, the savings from rebates in 1 year can
                                              exceed the one-time costs of implementing system changes.
                                              We recommend that CMS continue to encourage all States to
                                              collect rebates on physician-administered drugs, especially
                                              single-source drugs. As part of this effort, CMS should
                                              encourage cooperation and the sharing of information between
                                              States that collect rebates for these drugs, and States that do
                                              not, in order to facilitate rebate collection. It would be valuable
                                              for States that do not collect rebates for physician-administered
                                              drugs to know the details of implementing system changes, such
                                              as the what, where, when, and why of resources needed, and
                                              how the process unfolded for States that have been down this
                                              road. CMS could also issue a letter to State Medicaid Directors
                                              informing them about the availability and usefulness of the
                                              Medicare crosswalk. States could use this crosswalk, which is
                                              on the Internet, to reduce the administrative costs of creating
                                              and/or updating their own crosswalk.


        O E I - 03 - 02 - 0 0 6 6 0           ME D I C A I D RE B A T E S   FOR   PH Y S I C I A N - A D M I N I S T E R E D D RUGS   iv
E   X   E      C      U       T       I   V   E         S     U      M       M       A      R       Y



                                              AGENCY COMMENTS
                                              CMS concurred with our recommendation and is currently
                                              facilitating information sharing. The agency is passing on
                                              information to States seeking help to collect rebates on
                                              physician-administered drugs and providing contact names in
                                              States that have experience in this area. In addition, CMS has
                                              asked its Pharmacy Technical Advisory Group to serve as a
                                              resource to share this information with States in their consortia.
                                              CMS disagreed with our $37 million estimate of potential
                                              savings. As we reported, States provided us their payment and
                                              rebate information for physician-administered drugs for
                                              calendar year 2001 and told us whether they collected rebates
                                              on physician-administered drugs that year. We used the
                                              information provided by the States to calculate additional
                                              potential savings for each State in 2001. We acknowledge that
                                              the savings in future years will depend on rebate amounts and
                                              utilization and would likely be different from 2001.
                                              CMS also commented that our report did not break out the
                                              States that did not collect rebates in 2001 and that our report
                                              did not estimate their potential savings. We wish to point out
                                              that in Table 1 in Appendix A, we showed which States did not
                                              collect rebates in 2001 and which States told us they began
                                              collecting rebates after 2001. We also showed the 2001 potential
                                              savings for each State in Table 3 of Appendix A. We have added
                                              two sentences to page 10, citing the 2001 potential savings for
                                              seven States that began collecting rebates after 2001.
                                              CMS noted that of the 24 States not collecting rebates as of
                                              March 2003, 13 States had specific plans to collect rebates for
                                              these drugs and 6 States, while not having plans in place,
                                              indicated they will collect these rebates in the future. Our
                                              study, however, found the opposite for this subset of States.
                                              Thirteen States did not have specific plans, and six States did
                                              have specific plans (pages 10-11). In Appendix A, Table 1, we
                                              have added footnotes 12, 13, and 14 to identify the States that
                                              said they do not have specific plans, do have specific plans, and
                                              do not plan to collect rebates for these drugs. The full text of
                                              CMS comments is in Appendix B.




        O E I - 03 - 02 - 0 0 6 6 0           ME D I C A I D RE B A T E S   FOR   PH Y S I C I A N - A D M I N I S T E R E D D RUGS   v
T A B L E                             O F                 C O N T E N T S 




                     A B S T R A C T . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


                     EXECUTIVE SUMMARY ........................................ ii


                     I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1





                     F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


                                 States that collected, or did not collect, rebates on physician-

                                 administered drugs in 2001 ................................................................9


                                 Medicaid could have saved millions in 2001.......................................9


                                 States that began collecting rebates after 2001................................ 10


                                 Implementation costs can be recovered quickly ............................. 11




                     R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13





                     A P P E N D I X ~ A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


                                 Table 1. Summary of 2001 State Medicaid Data for

                                 Physician-Administered Drugs......................................................... 15


                                 Table 2. Selected Physician-Administered Multiple-Source 

                                 Drugs (n=40) ..................................................................................... 17


                                 Table 3. Potential Medicaid Savings on Rebates for 

                                 Physician-Administered Drugs in 2001............................................ 18


                     A P P E N D I X ~ B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


                                 Agency Comments............................................................................. 19


                     A C K N O W L E D G M E N T S ........................................................................ 21





O E I - 03 - 02 - 0 0 6 6 0           ME D I C A I D RE B A T E S   FOR   PH Y S I C I A N - A D M I N I S T E R E D D RUGS                      vi

I N T R O D U C T I O N 




                               OBJECTIVES
                              (1) To determine whether all State Medicaid agencies collect
                              drug manufacturer rebates for all physician-administered drugs.
                              (2) To estimate the potential savings that would result if all
                              State Medicaid agencies collected drug manufacturer rebates for
                              physician-administered drugs.


                              BACKGROUND
                              The Medicaid program, established under Title XIX of the Social
                              Security Act, is administered by States and financed with State
                              and Federal funds. Medicaid pays for medical and health-
                              related assistance for certain vulnerable and needy individuals
                              and families. All 50 States and the District of Columbia provide
                              coverage for prescription drugs under the Medicaid program.
                              From 1997 to 2000, Medicaid spending for outpatient
                              prescription drugs grew twice as fast as total Medicaid
                              spending. The total payments for outpatient prescription drugs
                              in fiscal year 2000 were $21 billion.
                              Drug Manufacturer Rebates
                              In fiscal year 2000, drug manufacturers paid the Medicaid
                              program $4 billion in rebates. This reduced Medicaid drug
                              expenditures by 19 percent (total payments before rebates,
                              $21 billion; after rebates, $17 billion).
                              State Medicaid agencies receive manufacturer rebates for drugs
                              under the Medicaid Drug Rebate Program. This program was
                              established by Federal law in 1990 (see section 1927 of the
                              Social Security Act). States cover all prescription drugs
                              produced by manufacturers who have entered into rebate
                              agreements under this program. Physician-administered drugs
                              (drugs that a medical professional administers to a patient in a
                              physician’s office) are among the drugs covered by the rebate
                              program. Only two States, Arizona and Tennessee, did not
                              participate in the rebate program at the time of our review.
                              Under the rebate program, manufacturers are required to
                              provide a rebate on drugs paid for by a State Medicaid agency.
                              In order to collect a rebate, the State is required to identify the
                              drugs by their national drug codes and provide quarterly units-


O E I - 03 - 02 - 0 0 6 6 0   ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   1
I   N   T    R       O      D         U   C   T   I     O      N


                                              paid data to the manufacturer. The manufacturer then pays the
                                              State a rebate, based on the unit rebate amount per drug
                                              multiplied by the number of drug units for which the State made
                                              payments.
                                              Codes Used to Bill Physician-Administered Drugs
                                              Self-administered drugs are typically billed by pharmacies in
                                              pharmacy claim formats using national drug codes to identify
                                              specific drug products. Physician-administered drugs, on the
                                              other hand, are more often billed by medical providers on
                                              professional service claims. (An example of a physician-
                                              administered drug is a prescription drug given by injection in a
                                              doctor’s office.) Professional service claims identify services,
                                              medical equipment, and physician-administered drugs by
                                              procedure codes (i.e., the Healthcare Common Procedure Codes).

                                              While it is possible to use either a national drug code or a
                                              procedure code to bill for a physician-administered drug, these
                                              codes identify different things. The national drug code is an
                                              11-digit numeric code, which is divided into 3 segments
                                              identifying (1) the firm that manufactures, distributes, or
                                              repacks the drug product; (2) the specific strength, dosage form,
                                              and formulation of the product for a particular firm; and (3) the
                                              product’s package size. The procedure code is a 5-digit alpha-
                                              numeric code that identifies a drug by its generic name; route of
                                              administration (e.g., oral or injection); and identifies the number
                                              of drug units allowed per reimbursement amount for that code.
                                              As mentioned above, States must identify drugs by their
                                              national drug code in order to collect rebates. Therefore, if a
                                              State requires the use of national drug codes for physician-
                                              administered drugs, identifying the drug by its national drug
                                              code for rebate collection is not a problem. If a State requires
                                              the use of procedure codes for physician-administered drugs,
                                              identifying the drug by its drug code can be difficult. For
                                              example, if the drug reimbursed by Medicaid has more than one
                                              manufacturer, the drug would have more than one national drug
                                              code. Therefore, the State would not be able to determine which
                                              national drug code matched the procedure code.




        O E I - 03 - 02 - 0 0 6 6 0           ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   2
I   N   T    R       O      D         U   C   T   I     O      N


                                              Past OIG Work Found that Few States Collected Rebates for
                                              Physician-Administered Drugs
                                              In 1996, the Office of Inspector General (OIG) conducted the
                                              study, Appropriateness of Medicare Prescription Drug
                                              Allowances, (OEI-03-95-00420). It examined Medicare
                                              allowances for prescription drugs through a comparison with
                                              Medicaid reimbursement mechanisms and Medicaid drug
                                              rebates. During the study, OIG found that while most State
                                              Medicaid agencies participated in the rebate program, only six
                                              were collecting rebates on physician-administered drugs.
                                              States’ ability to collect rebates for physician-administered
                                              drugs was contingent upon their ability to identify the drugs by
                                              their national drug codes.
                                              Federal Effort to Encourage States to Collect Rebates for Physician-
                                              Administered Drugs
                                              In 2002, the Centers for Medicare & Medicaid Services (CMS)
                                              informally gathered information regarding State collection of
                                              rebates for physician-administered drugs. This was done
                                              through the Pharmacy Technical Advisory Group ? a group
                                              composed of CMS and State representatives. From this data
                                              collection, it appeared to CMS that States could gain
                                              considerable savings if they collected rebates on these drugs.
                                              CMS wrote to State Medicaid Directors in March 2003,
                                              encouraging them to look into system conversions that would
                                              facilitate a crosswalk of procedure codes to national drug codes
                                              and make rebate collection possible for these drugs. A crosswalk
                                              is the identification of national drug codes for drugs represented
                                              by procedure codes.
                                              Availability of Medicare Crosswalk
                                              States that use procedure codes for physician-administered
                                              drugs need a crosswalk to national drug codes in order to collect
                                              rebates on these drugs. A Medicare crosswalk is available on
                                              the Internet. It contains drugs paid by Medicare in a particular
                                              quarter and it is updated quarterly. The Internet address is:
                                              http://www.cms.hhs.gov/providers/drugs/backgroundsdp.asp.




        O E I - 03 - 02 - 0 0 6 6 0           ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   3
I   N   T    R       O      D         U   C   T   I     O      N



                                              METHODOLOGY
                                              Preliminary Research
                                              We conducted background research on the Medicaid Drug
                                              Rebate Program and code requirements for drug claims,
                                              including a review of Federal laws, regulations, manuals, and
                                              program memoranda. We reviewed Medicaid expenditures for
                                              prescription drugs, and we also reviewed public and private
                                              studies addressing the Medicaid prescription drug program and
                                              cost controls.
                                              State Medicaid Data
                                              In January 2003, we began collecting a formal set of data from
                                              the 49 States (i.e., 48 States and the District of Columbia) that
                                              participate in the Medicaid Drug Rebate Program. For the sake
                                              of brevity, we use the word “State” in this report as a synonym
                                              for both “State Medicaid agency” and “State Medicaid agency
                                              representative.” We refer to the District of Columbia as a State
                                              for the same reason. We sent our data request to State
                                              Medicaid directors.
                                              We asked each State whether they collect rebates for physician-
                                              administered drugs, the year they began collecting rebates and
                                              for what types of drugs, the type of code they use to bill
                                              physician-administered drugs, the types of changes they made
                                              to their systems in order to collect rebates for physician-
                                              administered drugs, and the estimated costs of changing
                                              systems for this purpose. We also asked each State to provide
                                              us a set of financial data for physician-administered drugs in
                                              calendar year 2001, namely, total payments per code, total units
                                              paid per code, rebate dollars requested of manufacturers per
                                              code, and rebate dollars received from manufacturers per code.
                                              Forty-eight States answered the questions we sent them, and
                                              most States provided all or some of the financial data we
                                              requested. The State of Nevada provided financial data but did
                                              not respond to the questions. We did not verify the data States
                                              sent us. Table 1 in the Appendix includes the State financial
                                              data.
                                              CMS Data
                                              We used CMS’s 2001 list of national Healthcare Common
                                              Procedure Codes with complete definitions to identify the


        O E I - 03 - 02 - 0 0 6 6 0           ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   4
I   N   T    R       O      D         U   C   T   I     O      N


                                              universe of codes that represented physician-administered
                                              drugs.
                                              We used calendar year 2001 data from CMS’s Medicaid
                                              Statistical Information System (MSIS) to identify payments and
                                              units paid per code for physician-administered drugs for States
                                              that did not send us this information (see Table 1 in Appendix
                                              A). Five States did not provide payment and unit data, and an
                                              additional two States did not provide unit data. We aggregated
                                              the State payment data received directly from States with data
                                              retrieved from MSIS to determine total Medicaid payments and
                                              utilization for physician-administered drugs.
                                              CMS’s Medicaid Drug Rebate Initiative database (hereinafter
                                              called rebate database) was used to identify drug unit rebate
                                              amounts in calendar year 2001. Since unit rebate amounts are
                                              established quarterly, we took the unit rebate amount for each
                                              quarter and calculated the average. The average unit rebate
                                              amount was then used in our calculation to determine potential
                                              savings.
                                              We used the January 1, 2002 update of the Part B Drug
                                              Calculation File from CMS’s Single Drug Price contractor. The
                                              CMS contractor uses this file to establish a national Medicare
                                              payment allowance for procedure codes. The file is organized by
                                              procedure code. Data in this file for each of the 485 procedure
                                              codes for physician-administered drugs included the procedure
                                              code description and a list of associated drug products with their
                                              national drug codes. The CMS contractor used the 2001 Red
                                              Book, a national drug-pricing reference, to identify average
                                              wholesale prices for drugs in this file.
                                              We used the Part B Drug Calculation File to determine which
                                              procedure codes represented single-source drugs and which
                                              represented multiple-source drugs on the market in 2001. A
                                              single-source drug is a brand name drug that is manufactured
                                              under a patent and has no competing products. A multiple-
                                              source drug is a drug whose patent has expired and is
                                              manufactured by a number of different drug companies under
                                              different names. Multiple-source drugs may include generic
                                              drugs and brand name drugs.
                                              Single-source drugs are more likely to have only one national
                                              drug code and are more easily matched to a procedure code than

        O E I - 03 - 02 - 0 0 6 6 0           ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   5
I   N   T    R       O      D         U   C   T   I     O      N


                                              multiple-source drugs. If the Part B Drug Calculation File
                                              showed only one drug manufacturer for a procedure code, we
                                              took that to be an indication the procedure code represented a
                                              single-source drug. We then looked up that drug in the October
                                              2001 issue of Red Book ™ for Windows® to confirm whether it
                                              was indeed a single-source drug. Drugs in the Part B Drug
                                              Calculation File that had multiple manufacturers or were not
                                              confirmed as single-source drugs in Red Book were put in the
                                              multiple-source drug category.
                                              We also used the Part B Drug Calculation File to identify the
                                              national drug codes for single-source and multiple-source drugs
                                              that corresponded to each procedure code.
                                              Analysis of Payments for Physician-Administered Drugs
                                              Using State financial data, we identified payments for single-
                                              source and multiple-source, physician-administered drugs per
                                              State. Single-source drug payments for 46 States ranged from
                                              $43,000 to $20 million, for a national total of $148 million.
                                              Multiple-source drug payments for 46 States ranged from
                                              $12,000 to $18 million, for a national total of $152 million.
                                              Because California and Nevada use local codes (codes used by
                                              the individual States), and Massachusetts uses non-specific
                                              codes for physician-administered drugs, we did not identify
                                              payments for single-source and multiple-source drugs for these
                                              three States. We did, however, aggregate total payments for
                                              these three States with total payments for other States. Total
                                              national payments for physician-administered drugs in 2001
                                              were $364 million. A summary of payments is provided in
                                              Table 1 of Appendix A.

                                              Potential Savings Analysis
                                              Drugs Used to Calculate Savings. We reviewed all physician-
                                              administered, single-source drugs and 40 multiple-source drugs
                                              for which States made payments in 2001 but did not request a
                                              rebate, and for which a unit rebate amount was available in the
                                              rebate database. The number of single-source drugs reimbursed
                                              by each State ranged from 17 to 149. Of the 40 multiple-source
                                              drugs reviewed, the number reimbursed by each State ranged
                                              from 5 to 39. We reviewed drugs billed with national procedure
                                              codes only. We did not review any drugs billed with local codes.
                                              Nor did we review vaccines or immunizations because these
                                              products are not covered under the rebate program.

        O E I - 03 - 02 - 0 0 6 6 0           ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   6
I   N   T    R       O      D         U   C   T   I     O      N


                                              We selected the 40 multiple-source drugs in the following way.
                                              We took the State-reported payment data for physician-
                                              administered drugs billed with procedure codes and removed
                                              payments for codes that received rebates in 2001. We then
                                              aggregated the payments nationally by code. We arrayed the
                                              aggregated payments from high to low and selected 40 codes for
                                              multiple-source drugs having the highest payments. These 40
                                              drugs represented $71 million in total Medicaid payments.
                                              Table 2 in Appendix A lists the 40 drugs.
                                              In order to separate single-source drugs from multiple-source
                                              drugs, we matched the State’s procedure codes with procedure
                                              codes in our crosswalk of single-source drugs. If the procedure
                                              code paid by the State did not match a procedure code in the
                                              single-source crosswalk, we included it in the multiple-source
                                              category.
                                              For States that collected rebates on single-source, physician-
                                              administered drugs, we removed those codes from our analysis
                                              of the State’s potential savings.
                                              Identifying Unit Rebate Amounts. Unit rebate amounts for drugs
                                              are stored in the rebate database under the national drug code.
                                              Having completed a crosswalk for single-source drugs and
                                              selected multiple-source drugs, we compiled a list of national
                                              drug codes for the drugs under review in the single-source and
                                              multiple-source categories. We then obtained the unit rebate
                                              amount from the rebate database for each national drug code
                                              and calculated the average of the unit rebate amount for all
                                              quarters in 2001 for each national drug code. When more than
                                              one drug product was on the market for a particular procedure
                                              code, and therefore, had more than one national drug code and
                                              unit rebate amount in the rebate database, we identified the
                                              median unit rebate amount.
                                              In instances where the strength of the national drug code did
                                              not exactly match the strength of the procedure code, we applied
                                              a conversion factor to calculate the correct unit rebate amount
                                              for the procedure code. The unit rebate amount per procedure
                                              code was then used to calculate potential savings for each
                                              procedure code in each State.




        O E I - 03 - 02 - 0 0 6 6 0           ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   7
I   N   T    R       O      D         U   C   T   I     O      N


                                              Potential Savings Calculation. We used the following steps to
                                              determine potential savings:
                                                             Step 1. For each procedure code, we multiplied the total
                                                             number of drug units paid for the procedure code in 2001
                                                             by the unit rebate amount per procedure code. The
                                                             product of this calculation was the potential savings for
                                                             the procedure code.
                                                             Step 2. We calculated each State’s total potential
                                                             savings by adding the potential savings for each
                                                             procedure code.
                                                             Step 3. In order to determine total Medicaid potential
                                                             savings, we summed the potential savings from each of
                                                             the States.
                                              We noticed that in Step 1, savings for some procedure codes
                                              exceeded payments. This might have been the result of a State’s
                                              units-paid data not accurately representing paid claim units. In
                                              any State where potential savings for a procedure code exceeded
                                              the payments for that code, we removed the code from our
                                              savings calculations.
                                              Reporting the Potential Savings. Table 3 in Appendix A contains
                                              potential Federal and State savings per State. These savings
                                              were calculated on physician-administered drug payments of
                                              $169 million. This was the subset of payments for single-source
                                              and 40 multiple-source drugs for which the States did not
                                              request rebates in 2001. In addition, these payments do not
                                              include vaccines or immunizations, drugs billed with local codes
                                              or non-specific codes, and codes deleted because savings
                                              calculations exceeded payments.
                                                                              ____________________________

                                              This study was conducted in accordance with the Quality
                                              Standards for Inspections issued by the President’s Council on
                                              Integrity and Efficiency.




        O E I - 03 - 02 - 0 0 6 6 0           ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   8
 �     F I N D I N G S 


                                                          Of the 17 States that collected
             In 2001, 17 States collected rebates on
                                                          drug manufacturer rebates on
     physician-administered drugs, and 31 States          physician-administered drugs in
                                           did not.       2001, 3 States collected rebates
                          on all such drugs, and 14 collected rebates on single-source
                          drugs only.
                                        Three States that use national drug codes for billing were able to
                                        collect rebates on all physician-administered drugs.
                                        Only three States use national drug codes to bill physician-
                                        administered drugs (Hawaii, Missouri, and Pennsylvania). They
                                        were able to collect rebates for physician-administered drugs
                                        regardless of whether the drugs were single-source or multiple-
                                        source. Two of the three States sent us their data on total
                                        rebates collected in 2001. These two States collected $3 million
                                        in rebates or 30 percent of their total payments ($10 million) for
                                        physician-administered drugs.

                                        Fourteen States were only able to collect rebates on single-source,
                                        physician-administered drugs.
                                        Fourteen States that use procedure codes instead of national
                                        drug codes to bill physician-administered drugs were able to
                                        collect rebates for single-source drugs only. The four States that
                                        provided data collected $14 million in rebates on these drugs.

                                        In order to collect rebates for single-source drugs, these
                                        14 States developed a crosswalk to link procedure codes to
                                        national drug codes; developed conversion factors for codes
                                        where the description of procedure code units differed from
                                        rebate units; performed regularly scheduled system
                                        maintenance (e.g., to verify that the drug code is still active);
                                        identified claims with procedure codes that were, or could be,
                                        crosswalked; and changed the rebate invoicing procedure to
                                        merge physician services and pharmacy claims.

Medicaid could have saved millions of additional                       Medicaid could have added an
                                                                       estimated $37 million to its
 rebate dollars on physician-administered drugs
                                                                       rebate savings in 2001 if all
                                                        in 2001.
                                                                       States had collected rebates on
                                        single-source and 40 multiple-source, physician-administered
                                        drugs. Individual State payments and potential savings are in
                                        Tables 1 and 3 of Appendix A.



          O E I - 03 - 02 - 0 0 6 6 0   ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   9
  F   I   N    D       I    N       G   S


                                            Medicaid would have obtained the majority of these rebate savings
                                            from single-source drugs.
                                            States that did not collect rebates for single-source, physician-
                                            administered drugs had payments totaling $99 million for this
                                            subset of drugs. These States could have reduced 2001
                                            expenditures on these drugs by an estimated 30 percent or
                                            $30 million if rebates had been collected.

                                            Medicaid could have obtained further savings in rebates for 40
                                            multiple-source drugs.
                                            The States that did not collect rebates for 40 multiple-source,
                                            physician-administered drugs paid $70 million for these drugs
                                            in 2001. These States could have lowered payments by an
                                            estimated $7 million or 10 percent by collecting the rebates.

                                                         After 2001, 7 of 31 States that
After 2001, 7 of 31 States that had not collected        had not collected rebates on any
rebates on physician-administered drugs began            physician-administered drugs
                                         to do so.	      began collecting rebates for some
                                                         of these drugs. Six of these seven
                        States implemented changes (e.g., developed a crosswalk) to
                        collect rebates for single-source, physician-administered drugs.
                        The remaining State reported that it targets the eight highest
                        paid providers who bill physician-administered drugs and asks
                        them to provide the national drug code from the product
                        dispensed for the paid claim. Once the State has the drug code,
                        rebate invoices can be sent to manufacturers.

                                            The 2001 potential savings for these 7 States was $14 million on
                                            all single-source and 40 multiple-source, physician-administered
                                            drugs. This $14 million represents 38 percent of the total $37
                                            million in potential savings for 2001.
                                            As of March 2003, 24 States still did not collect rebates on any
                                            physician-administered drugs.
                                            The 24 States that did not collect rebates on physician-
                                            administered drugs as of March 2003, reported spending $125
                                            million for these drugs in 2001. Nineteen of these 24 States said
                                            they plan to collect rebates for physician-administered drugs.
                                            However, 13 of 19 have no specific plans to change their
                                            systems. Some of these 13 States said that they were aware of
                                            changes that are needed, and others said they did not know
                                            what changes are needed. Four of the 19 States indicated they
                                            have begun the process of making changes to their systems,
          O E I - 03 - 02 - 0 0 6 6 0       ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   10
F   I   N    D       I    N       G   S


                                          such as ordering a change to their Medicaid Management
                                          Information System, developing a crosswalk, building a new
                                          claims management system to accommodate national drug codes
                                          on professional service claims, and changing policies and billing
                                          instructions to require national drug codes. The remaining 2 of
                                          19 States responded that they have created crosswalks for
                                          single-source drugs.
                                          Five of 24 States that currently do not collect rebates on
                                          physician-administered drugs said they do not have plans to
                                          collect rebates for these drugs. These 5 States had $25 million
                                          in expenditures for physician-administered drugs.

            For States that had data available, rebates   Of the States currently
                                                          collecting rebates on
     requested or collected in 2001 exceeded the
                                                          physician-administered
system implementation cost of collecting rebates
                                                          drugs, four were able to
              for physician-administered drugs.           provide system
                       implementation costs for collecting rebates for these drugs.
                       Costs ranged from a high of $642,000 to a low of $56,100.
                                                 •	      The State that reported the highest implementation cost
                                                         estimate ($642,000) is a State that now collects rebates
                                                         for all physician-administered drugs. This State
                                                         implemented a policy change in 1992 that required
                                                         physician-administered drugs be billed on pharmacy
                                                         claims forms. Then, in 1994, they spent an estimated
                                                         $642,000 to integrate the pharmacy rebate system into
                                                         their Medicaid Management Information System. In
                                                         2001, they collected $3 million in rebates for physician-
                                                         administered drugs.
                                                 •	      A State that began collecting rebates in 2001 for single-
                                                         source, physician-administered drugs spent an estimated
                                                         $220,000. They made modifications to their Medicaid
                                                         Management Information System, including creating a
                                                         crosswalk and tables to store physician-administered
                                                         drug claims, and merging physician services and
                                                         pharmacy claims for rebate invoicing. In 2001, this
                                                         State requested $2 million in rebates from drug
                                                         manufacturers for single-source, physician-administered
                                                         drugs.



        O E I - 03 - 02 - 0 0 6 6 0       ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   11
F   I   N    D       I    N       G   S


                                                 •	      Another State estimated spending $110,000 for
                                                         personnel needed to make system changes to collect
                                                         rebates for single-source, physician-administered drugs.
                                                         This State began collecting rebates for these drugs after
                                                         2001, but in 2001 the State invoiced manufacturers
                                                         $1 million for rebates on these drugs.
                                                 •	      The State that had the lowest implementation costs
                                                         ($56,100) collected $3 million for single-source,
                                                         physician-administered drugs in 2001. This State began
                                                         collecting the rebates in 1998. This State’s
                                                         implementation costs were for a system engineer to
                                                         create a link between procedure codes and national drug
                                                         codes, add programming that automatically relates
                                                         procedure-code billing to drug-code billing, merge
                                                         physician and pharmacy claims for invoicing, and test
                                                         the system.
                                          Three additional States said they plan to collect rebates for
                                          single-source, physician-administered drugs. These States
                                          estimated the costs for system changes would range from
                                          $10,008 to $150,000. In addition to these one-time
                                          expenditures, 1 State planning to make changes said it would
                                          cost approximately $1,500 per year to maintain the new system.




        O E I - 03 - 02 - 0 0 6 6 0       ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   12
R E C O M M E N D A T I O N 




                              RECOMMENDATION
                              Rebates for physician-administered drugs help States reduce
                              prescription drug expenditures, which are rising at a time when
                              State budgets are severely stressed. Federal and State Medicaid
                              expenditures on physician-administered drugs could have been
                              reduced by an estimated $37 million in 2001 if all States
                              collected rebates on those drugs.
                              Based on cost estimates provided to us from States that have
                              implemented changes in order to collect rebates for physician-
                              administered drugs, the savings from rebates in 1 year can
                              exceed the one-time costs of implementing system changes.
                              We recommend that CMS continue to encourage all States to
                              collect rebates on physician-administered drugs, especially
                              single-source drugs. As part of this effort, CMS should
                              encourage cooperation and the sharing of information between
                              States that collect rebates for these drugs and States that do
                              not, in order to facilitate rebate collection. It would be valuable
                              for States that do not collect rebates for physician-administered
                              drugs to know the details of implementing system changes, such
                              as the what, where, when, and why of resources needed, and
                              how the process unfolded for States that have been down this
                              road. CMS could also issue a letter to State Medicaid Directors
                              informing them about the availability and usefulness of the
                              Medicare crosswalk. States could use this crosswalk, which is
                              on the Internet, to reduce the administrative costs of creating
                              and/or updating their own crosswalk.




                              AGENCY COMMENTS
                              CMS concurred with our recommendation and is currently
                              facilitating information sharing. The agency is passing on
                              information to States seeking help to collect rebates on
                              physician-administered drugs and providing contact names in
                              States that have experience in this area. In addition, CMS has
                              asked its Pharmacy Technical Advisory Group to serve as a
                              resource to share this information with States in their consortia.
                              CMS disagreed with our $37 million estimate of potential
                              savings. As we reported, States provided us their payment and

O E I - 03 - 02 - 0 0 6 6 0   ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   13
R   E   C      O       M       M      E   N   D      A      T      I    O         N


                                              rebate information for physician-administered drugs for
                                              calendar year 2001 and told us whether they collected rebates
                                              on physician-administered drugs that year. We used the
                                              information provided by the States to calculate additional
                                              potential savings for each State in 2001. We acknowledge that
                                              the savings in future years will depend on rebate amounts and
                                              utilization and would likely be different from 2001.
                                              CMS also commented that our report did not break out the
                                              States that did not collect rebates in 2001 and that our report
                                              did not estimate their potential savings. We wish to point out
                                              that in Table 1 in Appendix A, we showed which States did not
                                              collect rebates in 2001 and which States told us they began
                                              collecting rebates after 2001. We also showed the 2001 potential
                                              savings for each State in Table 3 of Appendix A. We have added
                                              a sentence to page 10, citing the 2001 potential savings for seven
                                              States that began collecting rebates after 2001.
                                              CMS noted that of the 24 States not collecting rebates as of
                                              March 2003, 13 States had specific plans to collect rebates for
                                              these drugs and 6 States, while not having plans in place,
                                              indicated they will collect these rebates in the future. Our
                                              study, however, found the opposite for this subset of States.
                                              Thirteen States did not have specific plans, and six States did
                                              have specific plans (pages 10-11). In Appendix A, Table 1, we
                                              have added footnotes 12, 13, and 14 to identify the States that
                                              said they do not have specific plans, do have specific plans, and
                                              do not plan to collect rebates for these drugs. The full text of
                                              CMS comments is in Appendix B.




        O E I - 03 - 02 - 0 0 6 6 0           ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   14
             A P P E N D I X ~ A 



Table 1. Summary of 2001 State Medicaid Data for Physician-Administered Drugs
This table incorporates the States’ responses to our information request. From January
through March 2003, we collected a formal set of data from the 49 States (i.e., 48 States and
the District of Columbia) that participate in the Medicaid Drug Rebate Program. We
specifically asked States to provide us with financial data for physician-administered drugs
only, and not to include crossover drug claims from Medicare. A number of States included
vaccines and immunizations in the financial data they sent us. However, these products are
not covered under the Medicaid Drug Rebate Program. Therefore, we excluded vaccine and
immunization data from our analysis of payments and potential savings and from this table.

                                                                                     Rebates Requested    Rebates Collected
                                                                                          of Drug             from Drug
                                                                                      Manufacturers for    Manufacturers for
                                                            Physician-Administered       Physician-           Physician-
                                     Physician-Administered Drugs for which States Administered Drugs in Administered Drugs in
            State                    Drug Payments in 2001 Collected Rebates in 2001       2001                  2001
 Alabama                                    $13,196,168 8           None1
 Alaska                                      $2,229,910             None13
 Arkansas                                    $4,159,582             None13
 California6                                $59,278,322             Single-Source                                                 $6,417,891         $5,445,273
 Colorado                                    $3,211,272 3           None14
 Connecticut                                 $3,776,003 8           Single-Source                                             Not Available         Not Available
 Delaware                                       $55,008             Single-Source                                             Not Available         Not Available
 District of Columbia                          $995,166             None12
 Florida                                    $22,037,705             None1
 Georgia                                    $13,205,614 4           Single-Source                                               $2,465,042 4         $3,627,956 4
 Hawaii                                        $479,692             All                                                          $237,295             $135,872
 Idaho                                       $1,830,202             None12
 Illinois 9                                  $1,612,548             None12
 Indiana                                     $9,806,848             Single-Source                                               $2,280,000 3        Not Available
 Iowa                                        $5,407,563 8           None14
 Kansas                                      $4,170,742 8           Single-Source                                             Not Available         Not Available
                                                                             1
 Kentucky                                    $1,995,578             None
 Louisiana                                   $3,723,133             None1
 Maine                                       $1,840,082             None12
 Maryland                                   $25,235,109             None1
 Massachusetts 6                              $190,676              None13
 Michigan                                    $6,625,762 7           Single-Source                                               $1,964,919 7         $1,193,894 7
 Minnesota                                   $5,451,191             None13
 Mississippi                                 $5,606,025             None12
 Missouri                                    $9,979,292             All                                                           $2,887,966         $2,875,550
 Montana                                     $1,896,598 3           None12
 Nebraska9                                   $3,174,260 5           None12
 Nevada                                      $4,510,532             Not Available10
 New Hampshire                                 $621,931             Single-Source                                                         $78,914   Not Available
 New Jersey                                  $2,274,470             None14
 New Mexico                                    $563,289             None12
 New York                                   $23,301,898             None12
 North Carolina                             $14,817,041             Single-Source                                                 $3,522,962         $3,285,105


             O E I - 03 - 02 - 0 0 6 6 0       ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S                             15
      A    P    P      E      N      D       I    X   ~    A



     North Dakota                                       $367,185                None12
     Ohio                                             $13,344,648               None14
     Oklahoma                                          $3,880,609               None12
     Oregon                                               $8,569,989            Single-Source                                              $1,437,366      Not Available
     Pennsylvania                                          $772,931             All                                                       Not Available    Not Available
     Rhode Island                                          $527,412 8           Single-Source                                             Not Available    Not Available
     South Carolina                                   $10,277,645               Single-Source                                             Not Available    Not Available
     South Dakota                                       $591,771                None13
     Texas                                            $35,534,137               None13
     Utah                                              $1,095,075               None12
     Vermont                                           $1,247,256               None1
     Virginia                                          $2,597,819               Single-Source                                                   $612,957   Not Available
                                                                                         2
     Washington                                       $17,740,284               None
     West Virginia                                     $6,529,169 3             None12
     Wisconsin                                         $3,548,728               Single-Source                                                   $634,259   Not Available
     Wyoming                                             $269,851               None14
                                   4911               $364,153,722                                                                         $22,539,571     $16,563,651

Sources: State Medicaid agency data provided to OIG January -March 2003, and CMS’s Medicaid Statistical Information System


1
    After 2001, State began to collect rebat es on single-source drugs.
2
    After 2001, State began collecting rebates for drugs billed by the 8 highest paid providers.
3    Fiscal year data.
4
    Eleven months of data.
5
    Based on service (not payment) dates.
6
    This State’s data is represented entirely by local codes or non-specific codes.
7
    Includes crossover drug claims from Medicare.
8
    State did not provide financial data to us. Therefore, we used data from CMS’s Medicaid Statistical Information System.
9
     State provided us with payments but not units. Therefore, we used units from CMS’s Medicaid Statistical Information System to calculate potential

     savings. Potential savings are in Table 3.

10
     State provided us with financial data but did not respond to the questions.

11
     Arizona and Tennessee did not participate in the Medicaid Drug Rebate Program at the time of our study.

12
     State said it planned to collect rebates for physician-administered drugs in the future, but the plans were not specific.

13
     State said it had specific plans underway to collect rebates for physician-administered drugs.

14
     State did not plan to collect rebates for physician-administered drugs.





                    O E I - 03 - 02 - 0 0 6 6 0            ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S                        16
 A    P   P      E      N      D       I    X   ~   A


Table 2. Selected Physician-Administered Multiple-Source Drugs (n=40)

     Procedure Code                                                     Description
          J0640                     INJECTION, LEUCOVORIN CALCIUM, PER 50 MG
          J1040                     INJECTION, METHYLPREDNISOLONE ACETATE, 80 MG
          J1100                     INJECTION, DEXAMETHASONE SODIUM PHOSPHATE, 1MG
          J1245                     INJECTION, DIPYRIDAMOLE, PER 10 MG
          J1561                     INJECTION, IMMUNE GLOBULIN, INTRAVENOUS, 500 MG
          J1562                     INJECTION, IMMUNE GLOBULIN, INTRAVENOUS, 5 GMS
          J1563                     INJECTION, IMMUNE GLOBULIN, INTRAVENOUS, 1G
          J1631                     INJECTION, HALOPERIDOL DECANOATE, PER 50 MG
          J1642                     INJECTION, HEPARIN SODIUM, (HEPARIN LOCK FLUSH), PER 10 UNITS
          J1644                     INJECTION, HEPARIN SODIUM, PER 1000 UNITS
          J1750                     INJECTION, IRON DEXTRAN, 50 MG
          J1885                     INJECTION, KETOROLAC TROMETHAMINE, PER 15 MG
          J2000                     INJECTION, LIDOCAINE HCL, 50 CC
          J2275                     INJECTION, MORPHINE SULFATE (PRESERVATIVE-FREE STERILE SOLUTION), PER 10 MG
          J2550                     INJECTION, PROMETHAZINE HCL, UP TO 50 MG
          J2680                     INJECTION, FLUPHENAZINE DECANOATE, UP TO 25 MG
          J2912                     INJECTION, SODIUM CHLORIDE, 0.9%, PER 2 ML
          J3370                     INJECTION, VANCOMYCIN HCL, 500 MG
          J7050                     INFUSION, NORMAL SALINE SOLUTION, 250 CC
          J7190                     FACTOR VIII (ANTIHEMOPHILIC FACTOR, HUMAN) PER I.U.
          J7192                     FACTOR VIII (ANTIHEMOPHILIC FACTOR, RECOMBINANT) PER I.U.
          J7194                     FACTOR IX, COMPLEX, PER I.U.
                                    ALBUTEROL, ALL FORMULATIONS INCLUDING SEPARATED ISOMERS, INHALATION
          J7619                     SOLUTION ADMINISTERED THROUGH DME, UNIT DOSE FORM, PER 1 MG
          J9000                     DOXORUBICIN HCL, 10 MG
          J9040                     BLEOMYCIN SULFATE, 15 UNITS
          J9060                     CISPLATIN, POWDER OR SOLUTION, PER 10 MG
          J9062                     CISPLATIN, 50 MG
          J9181                     ETOPOSIDE, 10 MG
          J9182                     ETOPOSIDE, 100 MG
          J9190                     FLUOROURACIL, 500 MG
          J9209                     MESNA, 200 MG
          J9265                     PACLITAXEL, 30 MG
          J9370                     VINCRISTINE SULFATE, 1 MG
          Q0136                     INJECTION, EPOETIN ALPHA, (FOR NON ESRD USE), PER 1000 UNITS
          Q9930                     INJECTION OF EPO, PER 1000 UNITS, AT PATIENT HCT OF 30
          Q9932                     INJECTION OF EPO, PER 1000 UNITS, AT PATIENT HCT OF 32
          Q9933                     INJECTION OF EPO, PER 1000 UNITS, AT PATIENT HCT OF 33
          Q9934                     INJECTION OF EPO, PER 1000 UNITS, AT PATIENT HCT OF 34
          Q9935                     INJECTION OF EPO, PER 1000 UNITS, AT PATIENT HCT OF 35
          Q9936                     INJECTION OF EPO, PER 1000 UNITS, AT PATIENT HCT OF 36

Source: CMS’s 2001 list of Healthcare Common Procedure Codes




              O E I - 03 - 02 - 0 0 6 6 0           ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   17

A    P    P      E     N      D       I    X   ~   A


Table 3. Potential Medicaid Savings on Rebates for Physician-Administered Drugs in 2001

                     Potential Savings for All Potential Savings for Selected Number of Selected Multiple-
                     Single-Source Physician- Multiple-Source Physician-       Source Drugs With State                                            Total Potential
         State         Administered Drugs       Administered Drugs (n=40)      Payments in 2001 (n=40)                                              Savings 4
Florida1                          $5,528,662                     $1,391,713                             27                                             $6,920,375
Texas                             $5,322,837                       $750,305                             30                                             $6,073,142
Washington1                       $2,271,591                       $259,842                             20                                             $2,531,432
Alabama 1                         $1,341,721                       $978,014                             38                                             $2,319,735
Ohio                              $2,007,335                       $271,809                             28                                             $2,279,144
New York                          $1,238,323                       $347,384                             30                                             $1,585,707
Mississippi                       $1,412,029                         $83,198                            24                                             $1,495,227
West Virginia                     $1,296,469                       $197,225                             29                                             $1,493,694
Maryland1                         $1,254,053                       $140,015                             29                                             $1,394,069
Minnesota                           $936,016                       $143,601                             32                                             $1,079,617
Iowa                                $823,714                       $223,213                             38                                             $1,046,927
Arkansas                            $999,389                         $71,679                            23                                             $1,071,068
Nebraska                            $832,833                       $153,363                             26                                               $986,195
Oklahoma                            $797,371                         $44,944                            25                                               $842,315
New Jersey                          $455,750                         $44,965                            30                                               $500,715
Montana                             $433,828                         $44,894                            30                                               $478,722
Kentucky 1                          $440,601                         $30,568                            10                                               $471,169
Colorado                            $367,984                         $45,422                            28                                               $413,406
Louisiana1                          $241,741                       $159,806                             23                                               $401,547
Alaska                              $359,894                         $41,153                            21                                               $401,047
Idaho                               $243,772                         $75,102                            36                                               $318,874
North Carolina2                                                    $307,865                             30                                               $307,865
Vermont1                            $275,045                         $25,902                            22                                               $300,947
Maine                               $247,267                         $25,778                            27                                               $273,045
Utah                                $211,677                         $13,203                            27                                               $224,880
Indiana2                                                           $210,665                             32                                               $210,665
Michigan2                                                          $181,748                             28                                               $181,748
South Carolina2                                                    $175,382                             27                                               $175,382
District of Columbia                $127,635                          $5,107                            25                                               $132,742
Connecticut2                                                       $132,157                             37                                               $132,157
Kansas2                                                            $112,065                             31                                               $112,065
South Dakota                        $102,510                          $6,605                            25                                               $109,115
North Dakota                         $74,405                          $2,897                            15                                                $77,302
Illinois                             $59,909                          $4,954                            30                                                $64,862
Wyoming                              $37,194                          $5,008                            13                                                $42,202
Wisconsin2                                                           $42,289                            26                                                $42,289
Georgia2                                                             $39,815                            16                                                $39,815
Rhode Island2                                                        $19,063                            22                                                $19,063
Oregon2                                                              $18,152                            18                                                $18,152
New Mexico                           $12,055                          $1,598                            22                                                $13,653
Virginia2                                                             $9,938                             5                                                  $9,938
New Hampshire2                                                        $6,042                            18                                                  $6,042
Delaware2                                                               $361                            13                                                   $361

                      433                      $29,753,610                                      $6,844,810                                           $36,598,420
Sources: State Medicaid agency data provided to the OIG January -March 2003, CMS’s Medicaid Statistical Information System, Medicaid Drug Rebate
Initiative database, and Single Drug Price contractor’s Part B Drug Calculation File
1
 These States began collecting rebates on physician-administered drugs after 2001.
2
  These States collected rebates on single-source drugs in 2001. We did not estimate potential savings on single-source drugs if a State collected rebates on
  these drugs . California collects rebates for single-source drugs but is not in this table because they use local codes.
3
  Arizona and Tennessee did not participate in the Medicaid Drug Rebate Program at the time of our study. California and Massachusetts are not in this table
  because they use local and non-specific codes,respectively. Hawaii, Missouri, and Pennsylvania are not in this table because they use national drug codes
  and collect rebates on all physician-administered drugs. Nevada is not in this table because they did not respond to our questions asking if they collect
  rebates for physician-administered drugs.
4
  The sum of potential savings for single-source and multiple-source drugs may not exactly equal total potential savings due to rounding.


                 O E I - 03 - 02 - 0 0 6 6 0           ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S                 18
�   A P P E N D I X                              ~               B 



      Agency Comments




     O E I - 03 - 02 - 0 0 6 6 0   ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   19

A   P   P      E      N       D       I   X   ~   B



         Agency Comments




        O E I - 03 - 02 - 0 0 6 6 0           ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   20

A C K N O W L E D G M E N T S 




                              This report was prepared under the direction of Robert A. Vito,
                              Regional Inspector General for Evaluation and Inspections in
                              the Philadelphia Regional Office, and Linda M. Ragone, Deputy
                              Regional Inspector General. Other principal Office of
                              Evaluation and Inspections staff who contributed include:


                              Isabelle Buonocore, Team Leader


                              Edward Burley, Program Analyst


                              Cynthia R. Hansford, Program Assistant


                              Linda Frisch, Program Specialist


                              Tricia Davis, Director, Medicare and Medicaid Branch




                              Technical Assistance 


                              Linda Moscoe, Program Analyst





O E I - 03 - 02 - 0 0 6 6 0   ME D I C A I D RE B A T E S   FOR   P H Y S I CI A N - A D M I N I S T E R E D D R U G S   21
